            valuation


             eport

       MILITARY ENVIRONMENT WITH RESPECT TO THE
              HOMOSEXUAL CONDUCT POLICY

Report No. D-2000-101                   March 16, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the
  Inspector General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CONUS                 Continental United States
                         Office of the Inspector General, DoD
Report No. D-2000-101                                               March 16, 2000
    (Project No. D2000LF-0029)

          Report on the Military Environment With Respect to the
                        Homosexual Conduct Policy

                                 Executive Summary

Introduction. On December 13, 1999, the Secretary of Defense tasked the Office of
the Inspector General, DoD, to assess the environment at representative installations
with respect to the application of the homosexual conduct policy that has been in place
since 1993 and is commonly referred to as the “Don’t Ask, Don’t Tell” policy. The
Secretary requested that the evaluation include:

•    a review of the extent to which the harassment of Service members based on
     perceived or alleged homosexuality may occur;

•    an assessment of the extent to which disparaging speech or expression with respect
     to sexual orientation may occur; and

•    an assessment of the extent to which disparaging speech or expression with respect
     to sexual orientation is tolerated.

Representatives from the Office of the Inspector General, DoD, surveyed Service
members from January 24 through February 11, 2000. We randomly selected
38 installations worldwide. At each location, we surveyed active duty Service members
from randomly selected units, and also surveyed active duty Service members assigned
to selected Navy ships and submarines homeported in the United States. The survey
questionnaires were designed and processed with emphasis on ensuring the anonymity
of all respondents. We collected 71,570 usable surveys.

Objectives. The primary objective was to assess the environment within DoD with
respect to the application of the homosexual conduct policy. We assessed the extent to
which disparaging speech or expression with respect to homosexuality occurred and
was tolerated. We also assessed the extent to which harassment of Service members
based on perceived or alleged homosexuality occurred and was tolerated. Additionally,
we assessed whether Service members had been trained on the homosexual conduct
policy and whether they understood the policy.

Results. Regarding the environment at the surveyed locations, 80 percent of the
respondents stated they had heard offensive speech, derogatory names, jokes, or
remarks about homosexuals in the last 12 months. Eighty-five percent believed such
comments were tolerated to some extent. Thirty-seven percent of the Service members
responded that they had witnessed or experienced an event or behavior toward a Service
member that they considered to be harassment based on perceived homosexuality.
About 5 percent believed that harassment based on perceived homosexuality was
tolerated by someone in their installation or ship chain of command, and 10 percent
believed it was tolerated by other unit members. About 78 percent of the respondents
indicated they would feel free to report harassment of perceived homosexuals. Overall,
97 percent of the respondents believed they had at least some understanding of the
homosexual conduct policy. Approximately 57 percent of the respondents stated they
had not had training on the policy. Finally, 50 percent of the respondents stated the
policy was moderately or very effective at preventing or reducing harassment;
46 percent stated it was slightly or not effective; and 4 percent did not provide a
response.




                                          ii
Table of Contents

Executive Summary                                                         i

Introduction
     Background                                                           1
     Limitations                                                          3
     Objectives                                                           3

Assessment of the Environment With Respect to the
 Application of DoD’s Homosexual Conduct Policy                           4


Appendixes
     A. Evaluation Process
          Scope and Methodology                                          19
     B. Secretary of Defense Tasking Memorandum                          27
     C. Homosexual Conduct Policy Survey                                 28
     D. Installations, Ships, and Submarines Surveyed                    34
     E. Usable Survey Responses by Question                              36
     F. Frequency of Occurrence of Events or Behaviors Service Members
          Considered To Be Harassment of Perceived Homosexuals           38
     G. Report Distribution                                              39
Background
    On December 13, 1999, the Secretary of Defense tasked the Office of the
    Inspector General, DoD, to assess the environment at representative installations
    with respect to the application of the homosexual conduct policy (the Policy).
    The Secretary requested that the Office of the Inspector General, DoD:
               . . . initiate an assessment of the environment at representative
               installations that you select within each Military Department with
               respect to the application of the homosexual conduct policy. This
               assessment will include a review of the extent to which the harassment
               of service members based on perceived or alleged homosexuality may
               occur. The extent to which disparaging speech or expression with
               respect to sexual orientation occurs or is tolerated should also be
               assessed as this can undermine good order and discipline. Please
               provide me with your assessment within 90 days.

    The Secretary of Defense memorandum is in Appendix B.

    Homosexual Conduct Policy. The DoD homosexual conduct policy has
    evolved over time in a number of memorandums, DoD directives, and at least
    one DoD instruction. On January 29, 1993, the Secretary of Defense was
    tasked by the President to review the DoD policy on homosexuals in the
    Military. On July 19, 1993, the Secretary of Defense issued a memorandum
    titled “Policy on Homosexual Conduct in the Armed Forces.” The
    memorandum states:
               The Department of Defense has long held that, as a general rule,
               homosexuality is incompatible with military service because it
               interferes with the factors critical to combat effectiveness, including
               unit morale, unit cohesion and individual privacy. Nevertheless, the
               Department of Defense also recognizes that individuals with a
               homosexual orientation have served with distinction in the armed
               services of the United States.

               Therefore, it is the policy of the Department of Defense to judge the
               suitability of persons to serve in the armed forces on the basis of their
               conduct. Homosexual conduct will be grounds for separation from
               the military services. Sexual orientation is considered a personal and
               private matter, and homosexual orientation is not a bar to service
               entry or continued service unless manifested by homosexual conduct.

    Under the homosexual conduct policy articulated in the memorandum,
    commonly referred to as “Don’t Ask, Don’t Tell,” applicants for service in the
    Military are not asked or required to reveal their sexual orientation. The
    memorandum also states that “. . . [h]arassment or violence against other
    servicemembers will not be tolerated.”

    Effective in February 1994, DoD revised or issued new directives, an
    instruction, and other policy guidance regarding accessions, personnel security
    investigations, Military training, personnel separations, and criminal
    investigations.




                                              1
Subsequent 1997 and 1999 guidance from the Under Secretary of Defense for
Personnel and Readiness reiterated the DoD Policy and emphasized the
importance of investigating threats against or harassment of Service members on
the basis of alleged homosexuality. The guidance reemphasized that
commanders can initiate investigations into homosexual conduct only upon
receipt of credible information of such conduct. The fact that a Service member
reports being threatened because he or she is said or perceived to be a
homosexual does not by itself constitute credible information justifying the
initiation of an investigation of the threatened Service member.

The authority to initiate inquiries and investigations involving homosexual
conduct is limited. Commanders and Defense criminal investigative agencies
are not permitted to initiate investigations solely to determine a Service
member’s sexual orientation. Commanders may initiate inquiries or
investigations only when there is credible information that a basis for discharge
or disciplinary action exists.

Assessment of the Environment With Respect to the Policy. To assess the
environment with respect to the DoD homosexual conduct policy, we developed
a survey questionnaire with technical assistance from the Defense Manpower
Data Center. The questionnaire is in Appendix C. The survey focused on the
occurrence of offensive speech and of events or behaviors considered to be
harassment based on perceived homosexuality; the tolerance of such speech,
events, or behaviors; and the respondent’s understanding and knowledge of the
Policy. Many of the survey questions asked respondents about occurrences
witnessed or observed during the past 12 months.

To obtain a representative sample of active duty Service members, we randomly
selected 38 installations worldwide of varying sizes. Included in the
38 installations were 5 recruit training installations. At the installations, we
randomly selected the units to be surveyed. The number of Service members
surveyed at each installation varied from about 700 to over 3,000. We also
surveyed more than 2,000 Service members assigned to randomly selected Navy
ships and submarines. The survey questionnaire was designed to ensure the
anonymity of respondents and units. See Appendix A for a discussion of the
scope and methodology. The installations, ships, and submarines we surveyed
are in Appendix D.

For each unit surveyed, we attempted to obtain 100 percent participation. When
less than 100 percent of unit personnel arrived to complete the survey, we
required unit or installation management to reconcile and explain the absences.
Valid reasons for not attending included leave, deployment, and temporary duty.
Reasons such as the Service member was “too busy” were not considered
acceptable and the individuals were rescheduled to complete the survey.
However, to protect anonymity, our sample was not selected by individual
Service member; therefore, we could not ensure 100 percent participation.

Many units made extraordinary efforts to ensure full participation. For
example, at one installation, flight schedules were modified to accommodate
survey administration. At some installations, individuals on leave prior to
discharge from the Military were surveyed. Also, personnel from the Office of



                                    2
     the Inspector General, DoD, made themselves available 24 hours a day to
     accommodate unit schedules. For example, one team administered surveys on a
     Saturday night after a snowstorm.


Limitations
     The results of the surveys discussed in this report are summarized by Service,
     pay grade, or gender. The time constraints of the evaluation did not permit
     further in-depth analysis. In-depth analysis and review may be warranted for
     certain questions to determine the interrelationships of Service members’
     perceptions based on Service, pay grade, or gender. Variables such as berthing
     or housing arrangements, location, unit personnel structure, or Service mission
     might have impacted the responses. Other limitations regarding the survey
     results include the following.

     •   Although Military installations and units were randomly selected from a
         database provided by the Defense Manpower Data Center, individual survey
         respondents were not randomly selected. Therefore, the survey results
         cannot be statistically projected.

     •   Many of the responses reflect Service members’ perceptions, the accuracy of
         which cannot be validated. Additionally, Service member responses cannot
         be readily compared to general population surveys because the Policy is
         unique to the Military and because of the dissimilar age and gender
         population distributions.

     •   The number of Service members who acknowledged witnessing a particular
         type of harassment toward a perceived homosexual and the number of actual
         harassment incidents are not necessarily the same. For example, a single
         incident involving a perceived homosexual might have been witnessed by
         numerous Service members.

     •   The survey results are descriptive and are not intended to be used for
         comparative purposes.


Objectives
     The primary objective was to assess the environment within DoD with respect to
     the application of the homosexual conduct policy. Specifically, we assessed the
     extent to which disparaging speech or expression with respect to homosexuality
     occurred and was tolerated. We also assessed the extent to which harassment of
     Service members based on perceived or alleged homosexuality occurred and was
     tolerated. Additionally, we assessed whether Service members had been trained
     on the Policy and whether they understood the Policy.




                                         3
           Assessment of the Environment With
           Respect to the Application of DoD’s
           Homosexual Conduct Policy
           Eighty percent of the respondents stated they had heard offensive speech,
           derogatory names, jokes, or remarks about homosexuals in the last
           12 months. Eighty-five percent believed such comments were tolerated
           to some extent. Thirty-seven percent responded that they had witnessed
           or experienced an event or behavior toward a Service member that they
           considered to be harassment based on perceived homosexuality. About
           5 percent believed that harassment was tolerated by someone in their
           installation or ship chain of command, and 10 percent believed that it
           was tolerated by other unit members. About 78 percent of the
           respondents indicated they would feel free to report harassment of
           perceived homosexuals.

           Regarding the Policy, 97 percent of the respondents stated they believed
           they had at least some understanding of the Policy. Approximately
           57 percent of the respondents stated they had not had training on the
           Policy. Fifty percent of the respondents stated the Policy was
           moderately or very effective at preventing or reducing harassment;
           46 percent stated it was slightly or not effective; and 4 percent did not
           provide a response.


Background
    Representatives from the Office of the Inspector General, DoD, surveyed
    Service members from January 24 through February 11, 2000. The survey was
    administered to 71,698 Service members. We then mailed the surveys to a
    contractor, where they were optically scanned and the results provided to the
    Office of the Inspector General, DoD. Of the 71,698 surveys, 128 were found
    to be completely blank. As a result, there were 71,570 usable surveys that
    contained at least one response to at least one survey question.

    Of the 71,570 respondents, 84 percent said they were male and 16 percent said
    they were female. One hundred and twenty individuals did not provide usable
    responses. In comparison, 86 percent of the total active duty population is
    male, and 14 percent is female. Of the survey respondents, 85 percent were
    enlisted and 15 percent were officers; 130 Service members checked multiple
    pay grades or left the question blank. Figure 1 provides a comparison of the
    officer and enlisted composition of each Service’s active duty end strength with
    the 71,570 respondents.




                                        4
              Figure 1. Percent of Active Duty End Strength by Service
                            and Percent of Respondents
                             Percent of Active               Percent of
             Service        Duty End Strength1              Respondents2


      Army                          34.6                        34.4
          Officer                   16.4                        12.5
          Enlisted                  83.6                        87.5
      Navy                          26.9                        24.2
          Officer                   14.6                        17.2
          Enlisted                  85.4                        82.8
      Air Force                     26.0                        29.1
          Officer                   19.7                        18.7
          Enlisted                  80.3                        81.2
      Marine Corps                  12.6                        12.1
          Officer                   10.4                         7.3
          Enlisted                  89.6                        92.6

      1
       As of October 1, 1999.
      2
       Percents of respondents may not equal 100 percent because some
      respondents failed to note their pay grade or Service on the survey
      questionnaire.


The respondent population percents are roughly comparable with those of the
active duty population by Service as well as by enlisted to officer and male to
female ratios.

Service members were asked to tell us their pay grade within one of four
ranges: Enlisted E-1 to E-4, Enlisted E-5 to E-9, Officer O-1 to O-3 (including
Warrant Officer W-1 and W-2), and Officer O-4 to O-10 (including Warrant
Officer W-3 to W-5). For purposes of this report, we refer to those four ranges
as junior enlisted, senior enlisted, junior officers, and senior officers,
respectively.

Unless separately noted in the following sections, Service members at recruit
training installations are included in their respective Service summary figures
and percents. Additionally, our analysis of the data for the 71,570 usable
surveys showed that there were varying numbers of usable survey responses to
each survey question (baseline). Many respondents properly skipped questions,
as instructed by the survey. Some other respondents may have opted to not
answer a question. As a result, some of the results in this report are based on
different baselines, depending on the number of respondents who provided
usable responses to each question. The baseline for each question is in
Appendix E.




                                           5
    The survey consisted of questions related to demographics; occurrences of
    offensive speech and of events or behaviors considered to be harassment based
    on perceived homosexuality; the tolerance of such speech, events, or behaviors;
    and knowledge of the Policy.


Occurrence of Offensive Speech, Derogatory Names, Jokes, or
  Remarks About Homosexuals
    The Secretary of Defense specifically tasked the Office of the Inspector General,
    DoD, to assess the extent to which disparaging speech or expression with
    respect to sexual orientation occurred and was tolerated. For the purposes of
    this section, disparaging speech or expression includes offensive speech,
    derogatory names, jokes, or remarks, and is referred to as offensive comments.
    Eighty percent of the respondents had heard offensive comments about
    homosexuals in the last 12 months. The frequency of occurrence varied.
    Forty-seven percent of the respondents stated they had heard offensive
    comments once or twice, or sometimes, in the last 12 months on their
    installation or ship. Thirty-three percent of the respondents stated they had
    heard offensive comments often or very often. Respondents could have
    answered positively to this question without considering the offensive comments
    to be harassment based on perceived homosexuality.

    There were several substantial differences (10 percent or greater) between the
    Services. Of the Air Force respondents, 23 percent stated that they had heard
    offensive comments in the last 12 months often or very often. Thirty-two
    percent of the Navy respondents, 37 percent of the Army respondents, and
    45 percent of the Marine Corps respondents stated they had heard offensive
    comments often or very often. Figure 2 shows responses by Service.




                                        6
            60


            50


            40
  Percent




            30


            20


            10


             0
                  Army          Navy            Air Force         Marine Corps


                 Never   Once/Twice or Sometimes            Often or Very Often



Figure 2. Percent of Respondents, by Service, Who Had Heard
Offensive Comments

We further noted substantial differences by pay grade and gender among
respondents to this question. For example, 42 percent of the junior enlisted
respondents said they heard offensive comments often or very often, while only
10 percent of the senior officers said they heard offensive comments often or
very often. Also, 35 percent of the males had heard offensive comments often
or very often, while 21 percent of the females had heard offensive comments
often or very often.

Because the pay grade and gender mix of respondents differed by Service, those
differences may explain some or all of the differences among the Services. For
example, 52 percent of the Army respondents and 69 percent of the Marine
Corps respondents were junior enlisted; 35 percent of the Navy respondents and
41 percent of the Air Force respondents were junior enlisted. The Marine
Corps respondents were 6 percent female; the Air Force respondents were
21 percent female.

Responses on the occurrence of offensive comments could be subjected to
further analysis to better understand the interrelationships of Service, pay grade,
and gender. Additionally, other variables such as berthing or housing
arrangements, geographic location, unit personnel structure, or Service mission
might have impacted the responses.

A followup question on offensive comments asked if such comments were
tolerated on the Service member’s installation or ship. Eighty-five percent of
the respondents said comments were tolerated to some extent. The frequency of


                                       7
    occurrence varied. Twenty-nine percent said they were tolerated to a large or
    very large extent. Fifteen percent of the respondents said they were not
    tolerated. A substantially higher percent of senior officers (25.6 percent) stated
    offensive comments were not tolerated than did junior enlisted (13.4 percent)
    and junior officers (14.8 percent). We noted a substantial difference between
    Air Force junior enlisted (27.3 percent) and Marine Corps junior enlisted
    (39.6 percent) who stated offensive comments were tolerated to a large or very
    large extent. Similarly, 21.9 percent of Air Force senior enlisted and
    34.3 percent of Marine Corps senior enlisted stated that offensive comments
    were tolerated to a large or very large extent. As with the prior question on
    who had heard offensive comments, there also was a substantial gender and pay
    grade difference among those respondents who said offensive comments were
    tolerated to a large or very large extent. Such differences would require further
    analysis to determine the interrelationship among the variables.


Occurrence of Harassment
    This section discusses Service member responses on types of harassment they
    might have witnessed or experienced based on perceived homosexuality. In
    addition, the Service members were asked to select one situation they had
    witnessed or experienced involving harassment of perceived homosexuals and to
    answer a series of questions about the situation.

    Occurrences of Harassment Based on Perceived Homosexuality. Service
    members were asked how often, if ever, they had witnessed or experienced
    events or behaviors they considered to be harassment of perceived homosexuals
    in the last 12 months. Thirty-seven percent of the Service members responded
    that they had witnessed or experienced one or more of eight specific events or
    behaviors toward a Service member that they considered to be harassment based
    on perceived homosexuality. Figures 3 and 4 show the frequency of occurrence
    of events and behaviors as stated by the respondents.




                                         8
            100
            90
            80
            70
            60
  Percent



            50
            40
            30
            20
            10
             0
                    Offensive         Offensive or hostile      Threats or            Graffiti
                     speech                gestures            intimidation

                                            Type of Harassment

                  Never            Once/Twice or Sometimes               Often or Very Often




            100
             90
             80
             70
             60
  Percent




             50
             40
             30
             20
             10
              0
                   Vandalism of            Physical            Limiting or      Disciplinary actions
                  Service member            assault          denying training     or punishment
                     property                                 and/or career
                                                              opportunities


                                               Type of Harassment

                  Never            Once/Twice or Sometimes               Often or Very Often


Figures 3 and 4. Frequency of Occurrence of Specific Events or Behaviors
Considered To Be Harassment


                                                 9
Appendix F provides actual percents, by category, for Figures 3 and 4. The
33 percent of respondents who had heard offensive speech considered to be
harassment of a perceived homosexual is lower than the 80 percent who had
heard offensive comments about homosexuals in the last 12 months. One
possible explanation for that difference is that not all offensive comments heard
by Service members were considered to be harassment.
Responses to questions related to offensive speech, offensive gestures, and
threats or intimidation differed substantially between the Services. A higher
percent of Air Force respondents than one or more of the other Services stated
they had not witnessed or experienced those three types of harassment. For
example, 76 percent of the Air Force respondents stated they had not witnessed
or experienced offensive speech as harassment. The other three Services ranged
from 60 percent to 66 percent. As shown in Figures 3 and 4, approximately
5 percent of the respondents had witnessed or experienced harassment toward
perceived homosexuals in the form of vandalism (5.1 percent), physical assault
(5.3 percent), and limited training and/or career opportunities (5.2 percent).
These percents represent frequencies of observations of occurrences and should
not be interpreted as frequencies of occurrences, because more than one Service
member might have witnessed the same incident of harassment. As with the
responses to the other questions, these questions could be subjected to extensive
analysis with regard to variables such as Service, pay grade, and gender.
Description of One Situation of Harassment Based on Perceived
Homosexuality. Of the 71,570 respondents, about one-third answered some or
all of the questions about one situation involving harassment of perceived
homosexuals. This series of questions addressed types of harassment; whether
the situation was witnessed by someone in the chain of command and whether
action was taken; the frequency, duration, and location of the situation; who was
harassed and who did the harassing; and whether the harassment was reported.
        Types of Harassment. We asked Service members to tell us about a
situation involving harassment of perceived homosexuals that they might have
witnessed or experienced during the last 12 months that they considered to be
the most significant. Figure 5 shows the events or behaviors involved in the
most significant situations.




                                    10
                   Figure 5. Types of Events or Behaviors Involved
                           in the Most Significant Situations
                                                              Percent*

      Offensive speech                                          88.7
      Offensive or hostile gestures                             34.7
      Threats or intimidation                                   19.8
      Graffiti                                                  15.2
      Vandalism of Service member property                       7.6
      Physical assault                                           9.0
      Limiting or denying training and/or career                 8.9
      opportunities

      Disciplinary actions or punishment (for                    9.5
      example, being punished for something
      when others were not)

      *Percent of respondents is calculated on a base of 23,603 Service members.


        As with the other occurrence questions, we noted substantial Service and
pay grade differences. For example, fewer Air Force members (28 percent)
stated their significant situation involved offensive or hostile gestures than
Marine Corps members (40 percent). Also, fewer Air Force junior enlisted
(16 percent) stated their significant situation involved threats or intimidation
than Army junior enlisted (26 percent).
        We also noted substantial differences by pay grade for offensive speech
and offensive or hostile gestures. Junior enlisted stated their significant situation
involved offensive speech (91 percent) or offensive or hostile gestures
(40 percent) at a higher rate than did senior officers (74 percent and 13 percent,
respectively). Again, additional analysis may explain the interrelationship
among Service, pay grade, and other variables.
        Harassment Witnessed and Action Taken. Service members were
asked whether their one cited situation was witnessed by someone senior to
either the person being harassed or the person doing the harassing. Fifty-three
percent stated that the situation was not witnessed by anyone senior to the
person being harassed or the person doing the harassing. Twenty-two percent
stated the situation was witnessed by someone senior, and 25 percent did not
know.
        The Service members who stated that their cited situation was witnessed
by someone senior to either the person being harassed or the person doing the
harassing were asked whether the senior person did anything to immediately
stop the harassment. Seventy-three percent stated that the senior person did not
do anything to immediately stop the harassment.


                                        11
       Frequency, Duration, and Location of the Harassment Situation.
Service members were asked a series of questions related to the frequency,
duration, and location of the harassment in their cited situation.
        Forty-nine percent of the respondents stated that the situation was a
one-time occurrence. Forty-two percent of the respondents stated that the
situation occurred occasionally. Nine percent stated the situation occurred
frequently or almost every day.
       Sixty-five percent of the respondents stated that the situation lasted less
than a week. Nine percent of the respondents stated that the situation lasted
from 1 week to less than 1 month; 12 percent said the situation lasted from
1 month to 6 months; and 14 percent said 6 months or more.
        Sixty-one percent stated the situation occurred mostly on a Military
installation or ship. Thirty-six percent stated the situation occurred mostly in
the local community around an installation.
        Pay Grade and Gender of Harassed and Harasser. We asked Service
members to tell us the pay grade and gender of the Service member who was
harassed and of the Service member who did the harassing in their cited
situation.
        Seventy-eight percent of respondents stated that enlisted Service
members were harassed, 2 percent said officers, and 5 percent said both enlisted
and officers were harassed in the cited situation. Fifteen percent stated they
didn’t know whether the person being harassed was enlisted or officer. Seventy
percent of the respondents stated males were harassed; 12 percent stated females
were harassed. Eighteen percent stated both males and females were harassed
in the cited situation. At recruit training installations, 82 percent of junior
enlisted personnel stated males were harassed, 8 percent stated females were
harassed, and 10 percent stated both males and females were harassed. It
should be noted that the overall active duty population is 86 percent male and
14 percent female. As previously discussed, further analysis may be warranted
to determine if the above differences are based on the mix by pay grade or
gender.
        Seventy-one percent of the respondents said that enlisted Service
members did the harassing and 9 percent said officers did the harassing.
Seventy-five percent of the respondents said males did the harassing, 5 percent
said females, and 20 percent said both males and females. At the recruit
training installations, 85 percent of junior enlisted personnel stated males did the
harassing, 5 percent stated females did, and 10 percent stated both males and
females did the harassing.
       Figure 6 provides information about the Service member who did the
harassing.




                                     12
                   Figure 6. Service Member Who Did the Harassing

                                                   Percent of Respondents
         Immediate supervisor                              11.1

         Unit commander                                     4.0

         Co-worker                                         61.0

         Subordinate                                       19.2

         Enlisted                                          71.0

         Officer                                            9.1

         Unknown                                           23.0


        Reporting of Harassment. Of the respondents who had witnessed or
experienced harassment, 16 percent said it had been reported (by responding
“yes” to one or more of the categories listed in Figure 7). Respondents were
asked whether the harassment was reported to one or more of the five officials
or offices as shown in Figure 7.

                  Figure 7. To Whom Harassment Was Reported
                                               Percent of Respondents
                                                    Who Stated:
      Harassment Reported to:                Yes      No     Don’t Know

      Immediate supervisor of person harassed    10.1    42.7        47.2

      Someone else in chain of command of         8.6    43.3        48.1
      person harassed

      Immediate supervisor of the person          8.8    43.1        48.1
      doing the harassing

      Someone else in chain of command of         6.8    43.8        49.4
      person doing the harassing

      Another DoD office or Military person       3.7    45.1        51.2
      with responsibility for followup


        For those respondents who stated that harassment had not been reported,
as well as those who stated they did not know if the harassment had been
reported, it should be noted they had witnessed the harassment but had not
reported it themselves.




                                       13
Tolerance of Harassment
    Respondents were asked a series of five questions about their perception of
    whether senior installation or ship management tolerated harassment based on
    perceived homosexuality, whether senior management had taken actions to
    prevent harassment, and whether they felt free to report harassment.
    Who Tolerated Harassment. Collectively, about 5 percent of the respondents
    stated they believed that someone in the chain of command (installation or ship
    commanders, unit commanders, or immediate supervisors) tolerated harassment
    of perceived homosexuals. Some respondents answered “yes” to more than one
    of the first three categories in Figure 8. Therefore, adding the individual
    percents from the yes column for those categories will not equal 5 percent.
    Slightly more than 10 percent of the respondents stated they believed their
    fellow unit members tolerated harassment. Figure 8 shows Service members’
    opinions about tolerance of harassment of perceived homosexuals by senior
    management and other unit members.

             Figure 8. Opinions of Respondents About Tolerance of Harassment
                                                        Percent of Respondents Who
                                                                   Stated:*
          Persons Who Tolerated Harassment              Yes       No      Don’t Know
          Commander of installation or ship              1.6      57.8       40.3
          Unit commander                                 1.9      61.1       36.8
          Immediate supervisor                           4.0      62.7       32.9
          Other unit members                            10.2      46.2       43.2
          *Percent of respondents does not equal 100 percent because some
          respondents did not answer the question or provided multiple responses.


    We asked respondents to tell us whether Service members got away with
    harassment of perceived homosexuals on their installation or ship. Fifty percent
    of the respondents stated they were not aware of any harassment. Seven percent
    said Service members never got away with harassment, and 7 percent said
    Service members got away with harassment infrequently. Eight percent of the
    respondents said that Service members got away with harassment frequently and
    28 percent said they didn’t know.
    Actions to Prevent Harassment. We asked Service members whether various
    actions had been taken on their installation or ship to prevent harassment of
    perceived homosexuals. Figure 9 shows the specific actions listed in the survey
    and the responses.




                                              14
                   Figure 9. Actions Taken to Prevent Harassment
                             of Perceived Homosexuals

                                                    Percent of Respondents Who
                                                                Stated:*
                   Action Taken on
                 Installations or Ships              Yes      No      Don’t Know

      Making it clear harassment is prohibited      62.8      13.8       23.1
      and will not be tolerated

      Investigating complaints                      21.7      15.7       62.2
      Enforcing penalties against offenders         23.2      13.8       62.5
      Enforcing penalties against unit              18.4      14.0       67.0
      commanders or supervisors
      who tolerate harassment

      *Percent of respondents does not equal 100 percent because some
      respondents did not answer the question or provided multiple responses.


Seventy-one percent of senior officers stated action had been taken on their
installation or ship to make it clear that harassment is prohibited.
Fifty-nine percent of junior enlisted said the same. A higher percent of junior
enlisted at recruit training installations reported that actions were taken in all
categories to prevent harassment of perceived homosexuals than junior enlisted
at operational installations.
Freedom to Report Harassment. Seventy-eight percent of the respondents said
they would feel free to report harassment and 22 percent said they would not
feel free to report harassment. The opinion about freedom to report harassment
varied substantially by pay grade. Seventy percent of junior enlisted, 83 percent
of senior enlisted, 89 percent of junior officers, and 94 percent of senior officers
stated they would feel free to report harassment.
The respondents who said they would not feel free to report harassment were
asked an additional question. They were asked if they would be concerned that
retaliation would be taken against themselves or the person being harassed by
either supervisory personnel or other unit members. Figure 10 shows who those
respondents would be concerned might receive retaliatory action by supervisors
or other unit members.




                                          15
               Figure 10. Concern of Retaliation for Those Service Members Who
                           Did Not Feel Free to Report Harassment
                       Action Against:                      Percent of Respondents*
          Them by their supervisor                                    29.6
          Them by other unit members                                  41.4
          The person being harassed by his or her                     33.8
          supervisor

          The person being harassed by other unit                     39.2
          members

          *Percents based on 15,156 respondents. Percent of respondents does not equal
          100 percent because some respondents did not answer the question or provided
          multiple responses.


    The most notable difference was between the Navy and the Marine Corps, with
    the Navy respondents stating they would be more concerned about retaliation
    than Marine Corps respondents.


Knowledge of the Policy
    The survey included five questions that were designed to assess a Service
    member’s knowledge of the Policy. We also asked respondents if they
    considered the Policy to be effective in preventing or reducing harassment based
    on perceived homosexuality.
    Level of Understanding of the Policy. Overall, about 97 percent of the
    respondents believed they had at least some understanding of the Policy.
    Specifically, 54.5 percent stated that they understood the Policy to a large or
    very large extent and 42.7 percent stated they understood the policy to a small
    or moderate extent; 2.3 percent stated they did not understand the policy.
    We asked three specific “knowledge” questions related to the Policy. For those
    Service members who claimed they understood the Policy to a large or very
    large extent, 26.5 percent of the respondents answered all three questions
    correctly. Eight percent of the respondents who stated they did not understand
    the Policy answered all three questions correctly. Although assessing
    knowledge of the Policy based on just three questions is not ideal, the
    relationship between the respondents’ stated understanding and demonstrated
    knowledge indicates they generally assessed their relative levels of
    understanding correctly.
    Training on the Policy. We also asked respondents to tell us if they had
    received training on the Policy. Forty-three percent of the respondents stated




                                           16
they had received training on the Policy, and 57 percent stated they had not
received training on the Policy. Figure 11 shows the training differences, by
Service, as reported by the respondents.

              Figure 11. Training Differences Among Survey Respondents*

                                 Percent Who Had              Percent Who Had Not
            Service              Received Training              Received Training
           Army                         54.4                          45.3
           Navy                         44.2                          55.5
           Air Force                    26.3                          73.3
           Marine Corps                 44.9                          54.7
      *Percent of respondents does not equal 100 percent because some respondents did
      not answer the question.


Of the Service members who had training, 96 percent stated they understood the
Policy to a moderate or very large extent. Of those who reported they had not
been trained on the Policy, 83 percent reported they understood the Policy to a
moderate or very large extent.
We recognize that some respondents may have answered “no” to whether or not
they had received training despite having received training on some aspects of
the Policy during other training sessions. For example, when the prohibition of
all types of harassment is taught during military core value or general military
training sessions, it might not be identified as Policy training. As a result, the
percent of Service members who stated they had not received training might
have been inflated. Regardless of the potential inflation, we believe that the
large percent of Service members who stated they had not received Policy
training indicates a need for greater emphasis in that area. Each of the Services
recently developed comprehensive training plans and curriculums to address the
problem.
Perceptions of the Effectiveness of the Policy. We also asked respondents if
they considered the Policy to be effective in preventing or reducing harassment
based on perceived homosexuality. Figure 12 shows respondents’ perceptions
as to the extent of the Policy’s effectiveness.

            Figure 12. Perceptions of the Effectiveness of the Policy at
                        Preventing or Reducing Harassment
                  Extent of
                Effectiveness                   Percent of Respondents
          No response                                      3.6
          Not effective                                   18.5
          Slightly effective                              27.8
          Moderately effective                            35.4
          Very effective                                  14.7



                                       17
    During administration of the surveys, several respondents asked how to answer
    the question on effectiveness of the Policy if they did not know the answer. In
    hindsight, we believe the question should have provided a “don’t know” option
    for the respondents. Generally, we instructed respondents to leave the question
    blank if they did not know the answer to the question. Figure 12 includes “no
    response” because the non-respondents might have intended “don’t know” to be
    their response.


Conclusion
    According to the respondents, offensive comments about homosexuals were
    commonplace and a majority believed they were tolerated to some extent.
    Additionally, the respondents stated that harassment of perceived homosexuals
    was most often done by junior enlisted males to other junior enlisted males.
    Offensive speech was by far the most recurring type of harassment. However,
    about 5 percent of the respondents had witnessed or experienced harassment of
    perceived homosexuals in the form of vandalism, physical assault, and limitation
    or denial of training or career opportunities.
    Although the majority of cited harassment situations had not been witnessed by
    someone senior to the person being harassed or the person doing the harassing,
    73 percent of the respondents who said that a senior person had witnessed the
    harassment reported that the senior person did nothing to immediately stop the
    harassment. Of those respondents who described a specific situation of
    harassment, 61 percent stated the harassment occurred on a Military installation
    or ship. Just under 50 percent said the harassment occurred during duty hours.
    Service members believed that harassment was more than twice as likely to be
    tolerated by other unit members (10.2 percent) than by the unit or
    installation/ship commander or the immediate supervisor (4.6 percent).
    Less than 50 percent of the respondents reported that they had training on the
    Policy. However, prior to our survey, DoD management had recognized the
    need to develop training plans discussing harassment of perceived homosexuals.
    On February 1, 2000, the Secretary of Defense approved the training plans for
    each Service.
    About 50 percent of the respondents believed the policy was moderately or very
    effective at preventing or reducing harassment; 46 percent believed it was
    slightly or not effective; and 4 percent did not provide a response. There is no
    basis for speculating on the extent to which respondent perceptions may change
    after the approved training plans are implemented. However, ensuring that
    meaningful training is provided to all Service members is clearly essential.




                                       18
Appendix A. Evaluation Process

Scope and Methodology
            We visited selected DoD installations, ships, and submarines worldwide. We
            reviewed pertinent policies, guidance, and laws dated from July 1993 through
            August 1999.
            To assess the environment with respect to the application of the Policy in DoD,
            the Office of the Inspector General, DoD, developed a 33-question survey. The
            survey is in Appendix C. The survey was developed with technical assistance
            from the Defense Manpower Data Center. Although the installations, ships, and
            submarines we visited are listed in Appendix D, nothing in the survey or in the
            processing of the survey allows us to identify a specific respondent or the unit
            and installation, ship, or submarine. To ensure that the survey would be
            understood by Service members, we tested the draft survey at one Army and
            one Navy installation. The comments from the test participants were, in some
            cases, incorporated into the final survey questionnaire.
            The survey focused on the occurrences of offensive speech and of events or
            behaviors considered to be harassment based on perceived homosexuality; the
            tolerance of such speech, events, and behaviors; and knowledge of the Policy.
            Many of the questions are dependent on Service members’ perceptions, which
            may or may not be factual.
            Representativeness of Survey Results. Our tasking for this evaluation required
            “representative installations . . . within each Military Department.” In a
            statistical sense, the representativeness of a sample is determined by whether the
            method of its selection was random or involved human judgment. We divided
            the installations in our sampling universe into strata to ensure coverage of the
            different sizes and types of installations. Of the 38 installations we selected, we
            chose all but one* either randomly or because it was the only installation in its
            category. For each of the 38 selected installations, we randomly selected units
            to be surveyed. Some installations or units, as discussed later, were excluded or
            replaced during sampling. Because exclusion decisions all were based on
            factors independent of the survey information being requested, distortion of
            representativeness was unlikely. Specific details of the methodology used to
            select the installations and units are discussed later in this appendix.
            To ensure that the population aboard ships was represented, the Naval Inspector
            General requested that we add CONUS-homeported ships to our sample.
            Accordingly, we surveyed an additional 2,010 respondents who were stationed
            aboard eight randomly selected ships and two submarines. One other submarine
            (113 respondents) was also included in our random sample of installation units,
            for a total of three submarines that were included in the survey. The Navy ship

*
    The exception was a Marine Corps training installation, selected so as to gather responses from both
    male and female recruits.



                                                      19
and submarine results are not separately reported, but are included in the overall
summaries for the Navy. At one Marine Corps location, we surveyed an
additional randomly selected combat unit (483 Marines).
In accordance with our decision to avoid even implicit possibilities of identifying
individual respondents, we eliminated installations with fewer than 1,000
assigned Service members. That precluded the possibility of singling out
individuals by identifying rare demographic groupings (for example, female
senior officers) at small installations. For the same reason, we also excluded
units with 10 or fewer assigned individuals at the remaining installations.
Survey Results Cannot Be Statistically Projected. The representativeness of a
sample is the first requirement that must be met in order to be able to
statistically project results beyond that of the sample. It is not, however, the
only requirement. The probabilities of selection for subgroups of individual
respondents must also be known so that the appropriate weighting factors for the
projection calculations can be applied. Because we protected our respondents’
anonymity, we are unable to determine those selection probabilities. Therefore,
the results of our survey cannot be projected statistically to the Military
Departments.
Population Sampling. Defense Manpower Data Center analysts supplied
population data from the Active Duty Master File as of September 30, 1999.
The file contained records for 1,371,144 Service members, of whom 89,619 did
not have assigned installation information in their records and 2,503 were
assigned to non-Military sites. Also, 135,864 Navy and Marine Corps
personnel were assigned to “Afloat” billets, not associated with an installation.
Service members assigned to identifiable Military installations ashore numbered
1,143,158. Officers and crew of ships and submarines in port at San Diego,
California; Norfolk, Virginia; or New London, Connecticut, sometime between
January 24 and February 11, 2000, were added to the population sampling.
Those personnel numbered 46,580. The installation and unit exclusions,
described earlier, encompassed 71,141 Service members assigned to small
installations and 19,428 to small units. Exclusion of a large Army installation, a
small Navy installation, and a Marine Corps training installation (discussed
later) meant an additional 30,551 personnel were excluded from the population
sampling. Our sampling frame was 1,068,618. (A sampling frame is a defined
subset of a universe from which a sample actually is drawn.)
From January 11 through February 11, 2000, teams from the Office of the
Inspector General, DoD, contacted and met with command personnel to
establish a schedule for administering the survey. Within that time period,
surveys were administered to 71,698 Service members. For each surveyed unit,
we attempted to obtain 100 percent participation and obtained information
supporting Service member absences from selected units. Service member
absences from selected units were caused by factors such as administrative
leave, deployments, personal or sick leave, and training at other locations.




                                    20
Before administering the survey to Service members, representatives from the
Office of the Inspector General, DoD, read the following prepared proctor
statement.
           Good morning (afternoon).
           We are from the Office of the Department of Defense Inspector
           General. I am (your name) and (introduce co-workers).
           On December 13, 1999, the Secretary of Defense directed that the
           DoD Inspector General assess the environment with respect to the
           application of the “Don’t Ask, Don’t Tell, Don’t Pursue” policy. We
           have been tasked to survey about 75,000 military personnel and to
           report the survey results back to the Secretary of Defense by
           March 13, 2000. Your unit was randomly selected to form a sample
           from the Armed Services. The survey ensures that individuals or
           units can not be identified. In that regard, please do not mark the
           surveys in any manner, except to answer the questions.
           The survey being passed out has to do with your perceptions of
           behaviors, events, or situations in the military related to the “Don’t
           Ask, Don’t Tell, Don’t Pursue” policy. For this survey, the term
           “homosexual” means gay or lesbian. The survey should take
           approximately 20 minutes for you to complete. If you have any
           questions during the survey, raise your hand and one of us will assist
           you.
           This session is not intended to provide a forum for reporting
           harassment. Complaints should not be written on the survey.
            (If needed) Please separate yourselves into every other seat to ensure
           that your answers to the survey remain completely private. We ask
           that each of you respect the confidentiality of everyone in the room.
           Please answer the questions with a blue or black ballpoint pen. If
           anyone needs a ballpoint pen, raise your hand and one of the proctors
           will bring one to you.
            (Option 1) Once you have completed the survey, please leave the
           room quietly. Place your completed survey in the box by the exit
           door, with the cover on the top. We also need for you to return the
           pen. In no event are surveys allowed to leave the room.
            (Option 2) Once you have completed the survey, please remain
           quietly in your seat. When the entire group has finished, please leave
           the room in an orderly manner and place your completed survey in
           the box by the exit door, with the cover on the top. We also need for
           you to return the pen. In no event are surveys allowed to leave the
           room.
           Note – The use of Option #1 or Option #2 depends on the design of
           your facility. Use your judgment.
           Are there any questions?
           Thank you for your cooperation.

In addition to protecting the anonymity of the survey respondents,
administration of the survey was designed to avoid the appearance that Service
members were being surveyed because of their attitude, behavior, or preference.
Therefore, we did not use any individual identifiers, either explicit or implicit,
in the design, execution, or analysis of the survey. That meant that a limited
amount of demographic information was collected. The final data file from the
contractor has no unit identifiers, and it is impossible to determine from which
unit and installation, ship, or submarine the surveys originated.

                                        21
In some instances, personnel from one Service were assigned to another
Service’s installation or ship. As a result, the predetermined Service sample
sizes for survey respondents (discussed later) are slightly understated or
overstated. Each respondent’s survey results should be included with their
respective Service; however, doing so relied on the Service demographic
question on the survey being correctly marked.
The total number of Service members included in the sampling frame for the
survey was 1,068,618. Coverage by Service is shown in Figure A-1.

                  Figure A-1. Population and Sampling Frame
                           Population       Sampling     Coverage
            Service      (End Strength)      Frame       (Percent)
         Army               473,750         382,956       80.8
         Navy               368,179         227,769       61.9
         Air Force          356,491         331,400       93.0
         Marine Corps       172,724         126,493       73.2

          Total           1,371,144        1,068,618      77.9



One reason for the lower coverage percent for the Navy is because ships and
submarines that were at sea, or were not homeported at San Diego, Norfolk, or
New London, were not included in our sampling frame.
Sampling Design and Allocation. We used a two-stage sampling design to
select installations and units to participate in the survey. At the primary stage,
we defined four strata of installations within each Service. The first stratum
was composed of large installations. We arrived at a definition of large
installation by using a size-ordered list of installations, by Service. Large
installations were those with the number of personnel assigned being
approximately two-thirds or more of the Service’s respective population. The
second stratum contained small installations, those with 1,000 or more assigned
Service members but not included in the first stratum. The third stratum was
the nine installations at which recruit training is conducted. The fourth stratum
encompassed ships and submarines in port at San Diego, Norfolk, or New
London sometime between January 24 and February 11, 2000. The numbers of
installations by Service in the first three strata are shown in Figure A-2.




                                      22
                             Figure A-2. Installations
                                Large               Small            Recruit
            Service          Installation        Installation        Training
         Army                    19                  40                  5
         Navy                    23                  25                  1
         Air Force               38                  38                  1
         Marine Corps             4                  12                  2


Figure A-3 shows the number of usable surveys by type of installation.

                  Figure A-3. Respondents by Type of Installation
        Installation Type                         Number of Respondents

        Large                                                   57,959
        Small                                                    6,217
        Training                                                 5,271
        Ship and Submarine                                       2,123

          Total                                                 71,570


Typically, in a survey such as this, Service members would be the secondary
sampling unit. That would allow control over coverage of pay grade, gender,
and other subgroups and provide a basis for weighting respondents’ answers to
enable statistical projections from the respondent sample to the entire sampling
frame. However, to ensure individual anonymity, our second-level sampling
was by Military unit, which means our survey results cannot be weighted by
subgroups and, therefore, cannot be projected statistically. The appropriate way
to interpret the results of our survey is as descriptive of the actual respondents.
We decided that an overall sample of between 50,000 and 75,000 Service
members was feasible within the scope of our evaluation. At the primary
sampling level, we allocated the sample size in the following manner. We
divided 55,000 surveys among the large installation stratum proportional to the
non-basic training populations of the Services. Also, we set a target minimum
sample size of 700 for each selected small installation and a minimum target of
1,000 for each chosen recruit training installation. We planned to collect a total
of at least 1,500 survey responses from Service members aboard ships and
submarines at San Diego, Norfolk, and New London.
For the Army, the Navy, and the Air Force, we randomly selected eight large
installations and two small installations. For the Marine Corps, we randomly
selected three large installations and one small installation. For the Army, we
randomly selected two of the five Army recruit training installations. For the
Navy and the Air Force, we selected their only recruit training installations. Of
the two Marine Corps recruit training installations, we selected the one that is
coeducational. Personnel at the other training installation were, therefore,


                                            23
excluded from our sampling frame. Figure A-4 shows the number and type of
installations that were selected, by Service, and how many surveys we expected
to administer (target minimum sample sizes).

      Figure A-4. Selected Installations and Target Minimum Sample Sizes
                               Large            Small        Recruit
          Service           Installations    Installations   Training   Ships
 Army
  Installations Sampled            8                2            2
  Target Sample Size          21,230            1,400        2,000
 Navy
  Installations Sampled            8                2            1
  Target Sample Size           9,845            1,400        1,000      1,500
 Air Force
  Installations Sampled            8                2            1
  Target Sample Size          17,545            1,400        1,000
 Marine Corps
  Installations Sampled            3                1            1
  Target Sample Size           6,830              700        1,000
   Total
    Installations Sampled         27                7            5
    Target Sample Size        55,000            4,900        5,000      1,500


One Air Force installation was chosen as both a large installation and a training
installation, and is listed in both categories in Figure A-4. It is included only
once in the total number of 38 installations selected.
We subsequently replaced one randomly selected large Army installation and
one small Navy installation with randomly chosen alternatives. We removed the
Army installation (Fort Campbell, Kentucky) from our survey because our
effort might have interfered with a criminal trial. We removed the Navy
installation (Naval Air Station Keflavik, Iceland) because of anticipated travel
difficulties in the winter months.
We used the Active Duty Master File to randomly order lists of units with more
than 10 individuals for each of the large, small, and training installations
selected for our survey. Likewise, at each of the three ports, we randomly
ordered the list of ships and submarines scheduled to be in port sometime
between January 24 and February 11, 2000. At the training installations, we
randomly listed only the units identified as basic training units. For the Air
Force installation that was chosen as both a large installation and a training
installation, the unit lists were separated (basic training and non-basic training
units).



                                        24
Selecting units rather than individuals at the secondary sampling level might
have had an important effect on the occurrence information we collected.
Because members of a Military unit work together and sometimes also live
together, a single occurrence of harassment might be observed by several
members of a unit. Such units might have been surveyed, resulting in several
respondents describing the same incident. Therefore, the appropriate way to
interpret the information pertaining to our occurrence questions is as frequencies
of observations of occurrences, and not as frequencies of occurrences
themselves.
Data Collection. Survey teams from the Office of the Inspector General, DoD,
administered the surveys during on-site visits to the selected installations,
starting with the first units on their randomly ordered lists, and proceeding to
additional units until they had achieved the target minimum sample size for their
site. At all selected installations, the number of surveys administered exceeded
the minimum sample size. In some instances, we encountered differences
between the information in the Active Duty Master File and the actual unit
location and number of assigned personnel. Some units on the lists could not be
surveyed because they no longer existed, had been relocated, or were deployed.
In those cases, the survey teams noted the reason for excluding the unit and
continued down the list to the next unit. In no instance was a unit excused from
the survey for fear of its members’ responses to the survey.
Data Processing. After administering the surveys, the on-site survey team
collected them and sent them to Data Recognition Corporation, Inc., a data
scanning contractor. Technicians there optically scanned the survey responses
into a computer data file. The individual records in the data file contained no
identifiers for either the selected units or the installations or ships. Data
Recognition Corporation analysts transmitted the data file containing the survey
responses, along with formatting information, to members of the Quantitative
Methods Division, Office of the Inspector General, DoD, for analysis.
Analytical Approach. Our overall analytical approach for the survey responses
was based on two factors. We used partial responses wherever a meaningful
interpretation was possible, maximizing the use of the information collected.
And, in recognition that our data is descriptive rather than statistical in nature,
we defined substantial differences among subgroups to be 10 percent or greater.
Because isolated extreme values can occur by chance in any survey data set, we
looked for patterns of substantial differences across subgroups, and not
differences occurring only once.
In order to preserve all usable response information, we defined separate
decision rules for each question of the survey. Those rules identified the
minimum information a response must contain to be interpreted meaningfully
within the survey section. Because some individuals responded to only parts of
the survey, we have a different baseline of usable responses for many of the
survey questions (see Appendix E).
We used the Microsoft Excel 97 (SR-2) spreadsheet software in designing our
sample. We performed the analyses of the survey responses using the Statistical
Analysis System, version 7.0.



                                    25
Specifics for Occurrence Section. The occurrence section comprised
questions 12 through 28. For question 12 and all eight parts of question 14, the
baseline is 71,570. For question 13, we deleted records with missing or
multiple responses and when the question was validly skipped based on the
answer to question 12. For question 16, we deleted only records with missing ,
multiple, or not applicable responses to all eight parts of the question.
For questions 17 through 28, we first applied a global rule: delete a record if
the responses to all parts of questions 14 and 16 indicated that no harassment
had been observed. We also recoded responses to question 18 to make them
consistent with those of question 17. (In this case, if a response to question 17
was “no” senior person witnessed the incident, then neither answer to
question 18 was appropriate; our recoding would show a “missing” answer for
18.) For questions 24 and 26, we recoded a multiple response as a single
response of “both male and female.” For each part of question 17 and
questions 19 through 28, we deleted records with missing, multiple, or not
applicable responses. Finally, for the analysis based on the aggregation of all
five answers to question 28, we deleted records if all five responses were any
combination of missing, multiple, or not applicable.
Specifics for Tolerance Section. The tolerance section comprised questions 29
through 33. For questions 29, 30, and 32, we separately deleted only records
with missing, multiple, or not applicable responses to all parts of each question.
We recoded the responses to question 31 to make them consistent with any
response indicating concerns in question 32. For questions 31 and 33, we
deleted records with missing, multiple, or not applicable responses. For
question 32, we deleted records if the response to question 31 was missing or
multiple, or if the answers to all four parts of question 32 were any combination
of missing, multiple, or not applicable. We also deleted records of respondents
who expressed no hesitation at reporting incidents of harassment or concerns
regarding that reporting (“yes” to question 31 and “no” responses to all four
parts of question 32). According to the survey instructions, those individuals
should have skipped question 32.
Specifics for Knowledge Section. The knowledge section comprised
questions 6 through 11. For questions 6 and 10, both separately and for
comparison, we deleted records if the responses to both questions were missing
or multiple. For comparing the responses to question 6 with those to
questions 7, 8, and 9, we deleted records if the response to question 6 was
missing or multiple. For comparing the responses to question 10 with those to
questions 7, 8, and 9, we deleted records if the response to question 10 was
missing or multiple. For question 11, we deleted records if the response was
multiple. We retained missing responses for question 11 because they could be
interpreted as “don’t know.”
Dates of the Evaluation. We performed this evaluation from December 17,
1999, through March 10, 2000.




                                    26
Appendix B. Secretary of Defense Tasking
            Memorandum




                      27
Appendix C. Homosexual Conduct Policy
            Survey




                  28
29
Note: The survey included a color that is not reproduced here. For example, the boxes
beside possible responses are not shown.

                                          30
31
Note: The survey included a color that is not reproduced here. For example, the boxes
beside possible responses are not shown.

                                          32
33
Appendix D. Installations, Ships, and
            Submarines Surveyed

Department of the Army
    Camp Casey, Republic of Korea
    Fort Belvoir, Virginia
    Fort Benning, Georgia (only recruit training)
    Fort Bragg, North Carolina
    Fort Drum, New York
    Fort Hood, Texas
    Fort Leonard Wood, Missouri (only recruit training)
    Fort Meade, Maryland
    Fort Sill, Oklahoma
    Fort Stewart, Georgia
    Friedberg, Germany
    Yongsan, Republic of Korea


Department of the Navy
    Naval Air Station Lemoore, California
    Naval Air Station North Island, California
    Naval Air Station Patuxent River, Maryland
    Naval Air Station Sigonella, Italy
    Naval Amphibious Base, Coronado, California
    Naval District Washington, Washington, DC
    Naval Medical Center, San Diego, California
    Naval Security Station, Washington, DC
    Naval Station San Diego, California
    Naval Submarine Base New London, Connecticut
    Naval Training Center Great Lakes, Illinois (only recruit training)
    NR 1, Deep Submergence Research and Engineering Submarine
    USS Antietam (CG 54)
    USS Cole (DDG 67)
    USS Estocin (FFG 15)
    USS McClusky (FFG 41)
    USS Peterson (DD 969)
    USS Princeton (CG 59)
    USS Seawolf (SSN 21)
    USS Stout (DDG 55)
    USS Toledo (SSN 769)
    USS Wadsworth (FFG 9)




                                       34
Department of the Navy (cont’d)
     Camp Lejeune, North Carolina
     Marine Corps Air Station Cherry Point, North Carolina
     Marine Corps Air Station New River, North Carolina
     Marine Corps Base Twentynine Palms, California
     Marine Corps Recruiting Depot Parris Island, South Carolina (only recruit
       training)

Department of the Air Force
     Andersen Air Base, Guam
     Dover Air Force Base, Delaware
     Hill Air Force Base, Utah
     Keesler Air Force Base, Mississippi
     Kirtland Air Force Base, New Mexico
     Lackland Air Force Base, Texas (including recruit training)
     Peterson Air Force Base, Colorado
     Pope Air Force Base, North Carolina
     Randolph Air Force Base, Texas
     Shaw Air Force Base, South Carolina




                                        35
Appendix E. Usable Survey Responses by
            Question
   Analysis of the survey results showed that there were 71,570 usable surveys and
   that there were varying numbers of usable survey responses to each question.
   The following figure shows the baseline for each question.

                        Usable Survey Responses by Question



                Survey Question Number             Baseline

                          1.                        71,570
                          2.                        71,570
                          3.                        71,570
                          4.                        71,570
                          5.                        71,570
                          6.                        71,513
                          7.                        71,264
                          8.                        71,264
                          9.                        71,264
                         10.                        71,513
                         11.                        71,533
                         12.                        71,570
                         13.                        59,216
                         14.                        71,570
                         15.                        68,346
                         16.                        23,603
                         17.                        25,878
                         18.                         5,641
                         19.                        26,023
                         20.                        25,913
                         21.                        25,878
                         22.a.                      25,550
                         22.b.                      25,477
                         22.c.                      25,398
                         22.d.                      25,472
                         23.a.                      25,633
                         23.b.                      25,533
                         23.c.                      25,465
                         23.d.                      25,454
                         23.e.                      25,687
                         23.f.                      25,472



                                         36
Appendix E. Usable Survey Responses by
            Question (cont’d)
          Survey Question Number        Baseline

                   24.                  25,692
                   25.                  25,695
                   26.                  25,661
                   27.a.                25,345
                   27.b.                25,310
                   27.c.                25,402
                   27.d.                25,236
                   27.e.                25,356
                   27.f.                25,166
                   27.g.                24,917
                   28.a.                25,764
                   28.b.                25,722
                   28.c.                25,685
                   28.d.                25,676
                   28.e.                25,628
                   29.                  71,125
                   30.                  70,983
                   31.                  69,416
                   32.                  15,156
                   33.                  70,441




                                   37
Appendix F. Frequency of Occurrence of Events
            or Behaviors Service Members
            Considered To Be Harassment of
            Perceived Homosexuals
                  Frequency of Events or Behaviors Witnessed by Respondents

                                                                Frequency*
                                                                Once/Twice        Often
      Event or Behavior                             Never       Sometimes       Very Often
      Offensive speech (for example,                 66.1           25.4            7.9
      derogatory names or remarks)

      Offensive or hostile gestures                  79.6           15.7            3.9

      Threats or intimidation                        87.1            9.6            2.4

      Graffiti                                       89.8            7.7            1.6

      Vandalism of Service member property           94.1            4.2            .9

      Physical assault                               94.0            4.2            1.1

      Limiting or denying training and/or career     94.1            4.0            1.2
      opportunities

      Disciplinary actions or punishment (for        93.5            4.2            1.4
      example, being punished for something
      when others were not)
      *Frequencies will not total 100 percent because some Service members did not provide
      a response or provided multiple responses to each event or behavior.




                                          38
Appendix G. Report Distribution

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
General Counsel, DoD
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          39
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       40
Evaluation Team Members
   The Military Benefits Division of the Readiness and Logistics Support
   Directorate, Office of the Assistant Inspector General for Auditing, DoD,
   managed the evaluation and prepared this report. Personnel from the
   Acquisition Management, Contract Management, Finance and Accounting, and
   Readiness and Logistics Support Directorates administered the surveys. In
   addition, personnel from the Quantitative Methods Division, Office of the
   Inspector General, DoD, and the Defense Manpower Data Center provided
   technical assistance.
